April 24, 2003
Supplement to Audit Report No. 03-013, dated
January 31, 2003


FDIC Procurement Credit Card Program




                           ** This is not an audit report. **

               This supplement contains copies of correspondence between
               the Office of Inspector General (OIG) and the Division of
               Administration (DOA) subsequent to the issuance of Audit
               Report No. 03-013, dated January 31, 2003. The intent
               of this supplement is to show progress made on the
               resolution of matters that were unresolved at the time the
               OIG issued the final report.
                       TABLE OF CONTENTS



I.    OIG Assessment of Management Response to the Final Report


      Memorandum dated March 28, 2003, from the Assistant
      Inspector General for Audits to the Director, Division of
      Administration



II.   Management Response to the Final Report

      Memorandum dated February 28, 2003, from the Director,
      Division of Administration, to the Assistant Inspector General for
      Audits
I.   OIG Assessment of Management Response to
     the Final Report
Federal Deposit Insurance Corporation                                                           Office of Audits
Washington, D.C. 20434                                                              Office of Inspector General



   DATE:                           March 28, 2003

   MEMORANDUM TO:                  Arleas Upton Kea, Director
                                   Division of Administration



   FROM:                           Russell A. Rau
                                   Assistant Inspector General for Audits


   SUBJECT:                        Assessment of DOA Response to Final Report Entitled FDIC
                                   Procurement Credit Card Program (Audit Report No. 03-013)


   We have reviewed your February 28, 2003 memorandum replying to our request for the Division of
   Administration (DOA) management to reconsider its response to unresolved
   recommendations 2 and 3 contained in the subject audit report. We agree with your position that
   corrective action is best directed towards the FDIC’s general policies and practices governing food
   and beverage expenditures in the conduct of official business, and we appreciate DOA’s
   reconsideration of our recommendations.

   Based on your memorandum and a copy of your action plan entitled Revision/Clarification of FDIC
   Policy on the Use of Corporate Funds for Food and Alcohol, we consider the two outstanding
   recommendations in the subject report to be resolved. Our analysis of DOA’s response to the two
   recommendations is set forth below after the pertinent recommendations:

   (1)      Define extravagant meals and refreshments and what constitutes an allowable and
            unallowable expense for meal purchases using the procurement credit card.

   (2)      Prohibit the purchase of alcoholic beverages using the procurement credit card.

   OIG Analysis: These two recommendations relate to our findings that procurement credit cards
   were used for meals and refreshments that could be considered “extravagant” and where the
   business purpose was questionable based on existing FDIC policy. Also, charges included alcoholic
   beverages, which is an expense for which the FDIC does not reimburse employees under its general
   travel policies. DOA stated in its latest response that DOA will lead a cross-organizational team to
   review existing corporate policy and practice related to the purchase of food and alcoholic beverages
   in the conduct of official business. The review will be conducted by March 31, 2003 and DOA
   believes that it will result in new corporate-wide policies and procedures, appropriate definitions,
   rules for use, and approval levels for these two types of expenditures. DOA will forward the revised
   policies and procedures to the OIG for review by April 15, 2003. The OIG will review the revised
   policies and procedures upon completion and will determine whether changes to the policies and
   procedures fully address our concerns. At this time, the
recommendations are resolved; however, they will remain undispositioned and open until we have
determined that planned corrective actions have been completed and are effective.

No further response is required from DOA management. We will continue to monitor
implementation of these actions. If you have any questions concerning the report, please contact me
at (202) 416-2543 or Sharon M. Smith at (202) 416-2430. We appreciate the courtesies extended to
the audit staff.

cc:    Vijay G. Deshpande, DIRM
       David McDermott, DOA
       Andrew Nickle, DOA
       Mike MacDermott, OICM
       Corrine Watts, OICM




                                                 2
II. Management Response to the Final Report
Federal Deposit Insurance Corporation
550 17th St. NW Washington DC, 20429                                                Division of Administration



                                                     February 28, 2003

TO:              Russell A. Rau
                 Assistant Inspector General for Audits

FROM:            Arleas Upton Kea
                 Director

SUBJECT: Final Report Entitled FDIC Procurement Credit Card Program

This responds to your memorandum dated January 31, 2003 which provided the final audit report
for the Procurement Credit Card Program and requested further management comments regarding
our nonconcurrence with recommendations 2 and 3. These recommendations
requested DOA take action to define extravagant meals and refreshments as allowable or
unallowable expenses for payment under the procurement card program and, further, that DOA
prohibit the purchase of alcoholic beverages with the credit cards.

As stated in our January 24, 2003 management decision, we believe that the Acquisition Policy
Manual’s policies and procedures sufficiently address the purchase of meals and refreshments and
that controls are in place to minimize potential risks to the Corporation. As was discussed at the
recent Audit Committee meeting, we appreciate your understanding that these recommendations
should not be directed at the Procurement Card Program, but rather towards FDIC’s general
policy and practice governing food and beverage expenditures in the conduct of official business.

To resolve the outstanding audit recommendations related to these questioned expenditures, DOA
agrees to lead a cross-organizational team to review existing corporate policy and practice related
to the purchase of food and alcoholic beverages in the conduct of official business. The review is
to be concluded by March 31, 2003 and we believe it will result in new corporate-wide policies
and procedures, appropriate definitions, rules for use, and approval levels for these two types of
expenditures. The policies and procedures will be forwarded for management and OIG review by
April 15, 2003.

If you have any questions on this response, please contact David McDermott, Agency Program
Coordinator for the Procurement Credit Card Program, on x23434.
January 31, 2003
Audit Report No. 03-013


FDIC Procurement Credit Card Program
                        TABLE OF CONTENTS


BACKGROUND                                                       2

RESULTS OF AUDIT                                                 4

COMPLIANCE WITH EXISTING FDIC POLICIES                           5

     Procurement Credit Cards Not Properly Safeguarded           5

     Non-Compliance with FDIC Procurement Credit Card Policies   6

           Recommendation                                        8

PROCUREMENT CREDIT CARD FOR “EXTRAVAGANT MEALS”
AND QUESTIONABLE BUSINESS PURPOSE                                8

           Recommendations                                       10

CANCELLATION OF PROCUREMENT CREDIT CARDS                         10

           Recommendation                                        11

ISSUING PROCUREMENT CARDS AND REDUCING
PROCUREMENT THRESHOLDS                                           12

           Recommendations                                       12

MANAGEMENT ASSESSMENT OF PROGRAM RISK                            12

           Recommendation                                        13


CORPORATION COMMENTS AND OIG EVALUATION                          13

APPENDIX I:SCOPE AND METHODOLOGY                                 18

APPENDIX II:      CORPORATION COMMENTS                           19

APPENDIX III:     MANAGEMENT RESPONSES TO
                  RECOMMENDATIONS                                24
TABLES

    Table 1: Instances of Non-Compliance   7

    Table 2: Analysis of Meal Costs        9




                                      7
Federal Deposit Insurance Corporation                                                                             Office of Audits
Washington, D.C. 20434                                                                                Office of Inspector General



   DATE:              January 31, 2003

   TO:                Arleas Upton Kea, Director
                      Division of Administration

                      Fred S. Selby, Director
                      Division of Finance



   FROM:



   SUBJECT:           FDIC Procurement Credit Card Program
                      (Audit Report No. 03-013)

   The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG) has
   completed an audit of the FDIC’s procurement credit card program. In May 2000, we issued
   another audit report1 regarding the FDIC’s procurement credit card program. Our May 2000 report
   focused on an evaluation of established policies and procedures and administrative compliance
   reviews performed by the FDIC’s Division of Administration (DOA). DOA performed the
   reviews of procurement credit card transactions to ensure compliance with the policies and
   procedures. The audit showed that the FDIC adequately implemented those control activities, and
   employees properly utilized the cards. In September 2001, we received a request from Senator
   Charles E. Grassley, Ranking Minority Member, U.S. Senate Committee on Finance, regarding the
   FDIC’s use of government charge cards. We undertook two additional audits in response, one
   related to the FDIC’s travel card program2 and the subject review related to the Corporation’s
   procurement credit card program. The objective of our current audit was to determine whether the
   FDIC had implemented effective internal control3 over its procurement credit card program to
   reduce the risk of improper procurement credit card usage. Appendix I provides details of our
   scope and methodology.




   1
     FDIC OIG Audit Report No. 00-015, Audit of the Corporation’s Procurement and Travel Card Programs, dated
   May 24, 2000.
   2
     FDIC OIG Audit Report No. 02-030, FDIC Travel Card Program, dated August 30, 2002.
   3
     The five standards for internal control in the federal government as prescribed by the U.S. General Accounting Office
   (GAO) in Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1, November 1999) are:
   (1) the control environment, (2) risk assessment, (3) control activities, (4) information and communications, and (5)
   monitoring. These standards provide a general framework. In implementing these standards, management is
   responsible for developing the detailed policies, procedures, and practices to fit their agency’s operations and to ensure
   that they are built into and an integral part of operations.
BACKGROUND

In an effort to streamline the procurement process for low dollar goods and services, the
General Services Administration (GSA) initiated the Government-Wide Credit Card Program.
The Government-Wide Credit Card Program allows appropriately authorized federal
employees to make official government purchases using a procurement credit card. The
program was designed to reduce the administrative timeframes and costs generally associated
with low dollar value procurements.

The GSA awarded contracts to various banks to provide the procurement credit card services
for federal agencies. Each participating agency was permitted to select a bank to provide its
credit card services. The FDIC elected to participate in the credit card program and selected the
Bank of America. Each month the Bank of America provides the FDIC with a billing
statement reflecting all procurement credit card purchases.

In order to provide guidelines for conducting its credit card program, the FDIC developed the
FDIC Acquisition Policy Manual (APM), Section 9.E., entitled FDIC Procurement Credit
Card Program. The policy describes control activities, the roles and responsibilities of
individuals and the FDIC offices that conduct the program, guidelines for credit card usage,
purchase limits, and administrative procedures such as how to request a card. Key roles within
the FDIC’s procurement credit card program include the Agency Program Coordinator (APC)
within DOA, Approving Officials (AO), Cardholders, and Accounting Contacts. The APC
serves as the liaison to the Bank of America, and GSA and is responsible for oversight and
administration of the FDIC program nationwide. Also, the APC develops program policies,
provides clarification and guidance to program participants, and is responsible for reporting
program activities to FDIC executive management.

AOs are representatives of an FDIC division or office who are responsible for reviewing and
approving all charges incurred by cardholders. According to the APM, AOs are responsible for
periodically reviewing purchase receipts in conjunction with the approval of the monthly
statements; verifying proper documentation; assisting with the resolution of disputed items,
when necessary; and ensuring compliance with the FDIC billing office’s requirements for
statement verification and approval and cardholders exceeding established monthly
procurement limits. The APM requires AOs to ensure that the cardholder maintains complete
records of all credit card charges, including the original monthly billing statement, charge slips,
and original receipts. In addition, the APM requires AOs to review purchase receipts to ensure
that cardholders do not split purchases to circumvent their single purchase limit and the
combined charges of cardholders do not exceed established monthly procurement limits.
The APM also provides guidelines for cardholders. AOs designate cardholders and the APC
approves the designation. Cardholders make purchases for their respective FDIC office or
division and are responsible for:

•   maintaining physical security of their card and safeguarding the credit card account
    number;
•   ensuring that the card is used solely for official FDIC business, in accordance with FDIC
    policy;


                                                2
•   obtaining fair and reasonable prices for all purchases and ensuring that the prices do not
    include sales taxes;
•   maintaining sufficient documentation and descriptions to justify card charges; and
•   verifying the accuracy of the charges reflected on their monthly billing statements from the
    Bank of America.

Another function involved in the FDIC’s procurement credit card program is the Accounting
Contact. AOs designate an Accounting Contact for their FDIC division or office. The
Accounting Contact assists with the payment process by reconciling the cardholder’s record of
purchases to the monthly cardholder statement of credit card charges from the Bank of America
and preparing an Excel spreadsheet. The spreadsheet contains all the purchasing information
during the billing cycle, and the Accounting Contact provides this information to the FDIC
Division of Administration’s Acquisition and Corporate Services Branch, Acquisition Section.
 The Acquisition Section prepares a Purchase Authorization Voucher and forwards this voucher
to the Division of Finance for final payment to the Bank of America for items or services
procured.

The FDIC’s APM also establishes procurement thresholds. The maximum single purchase
limit for any cardholder is $5,000 unless approved by the APC. In addition, according to the
APM, the monthly procurement limit for a cardholder is $50,000 unless a higher amount is
approved by the APC. However, in practice, many cardholders have thresholds of $2,500 for a
single purchase and $25,000 monthly. As the procurement credit card program has evolved,
the APC has approved higher thresholds for certain cardholders. These thresholds range from
$25,000 for single and $150,000 for monthly purchases to $250,000 for single and $1,000,000
for monthly purchases.4

In addition to the above guidelines, the APM describes the types of purchases that are
acceptable and those that are prohibited. Some examples of acceptable purchases include:
building repairs, equipment purchases, external training courses, membership fees and
association dues, advertising, carpet repair, and non-monetary awards. Some examples of
prohibited purchases include official travel expenses, rental or lease of buildings,
telecommunications services, artwork, and computer software/hardware warranties.
Additionally, only cardholders in the FDIC Division of Information Resources Management
(DIRM) are authorized to procure information resources management goods and services.

The FDIC’s procurement credit card program has over 500 cardholders. For the 2-year period
beginning January 1, 2000, purchases made as part of the procurement card program totaled
approximately $15 million. Given this level of usage, the Corporation uses internal control
procedures to ensure proper procurement credit card usage and assist in preventing and
detecting fraud, abuse, and errors. For example, it has established controls for spending
thresholds and responsibilities of all parties involved in the program.



4
 Only one FDIC employee, the Chief, Administration Contracting Group, has a threshold of $250,000 for single and
$1,000,000 for monthly purchases.


                                                        3
Toward the end of our audit fieldwork, the President’s Council on Integrity and Efficiency,
composed of presidentially appointed Inspectors General (IG), and the Executive Council on
Integrity and Efficiency, mainly composed of the IGs who are appointed by agency heads,
issued A Practical Guide for Reviewing Government Purchase Card Programs. This guide
also incorporates the GAO Control Standards, and we used it as a reference in conducting our
review.


RESULTS OF AUDIT

Internal control over the Corporation’s procurement credit card program was not fully effective. In
line with the GAO’s standards for internal control, the FDIC took action to foster an environment
for proper use of procurement cards by establishing and communicating formal policies,
procedures, and approval processes to reduce the risk of improper use of the card. However, we
determined that FDIC employees were not always fully complying with established policies,
procedures, and control activities, and in some cases the policies and procedures needed
reinforcement, modification, or clarification. It is important to note that individual deficiencies
were not material; however, collectively, they represent systemic weaknesses that increase the risk
of misuse. For example, in some cases procurement credit cards and numbers were not properly
safeguarded, employees were able to circumvent purchase limits, some purchases lacked
supporting documentation, and employees at times incurred sales taxes although the APM
specifically prohibits paying these charges. Also, in the absence of clear policies and procedures,
extravagant meals and alcoholic beverages 5were purchased with procurement credit cards, as well
as other purchases that may not qualify as “official business.”

The FDIC could strengthen its procedures for monitoring and overseeing the effectiveness of the
procurement card program. The FDIC does not have effective procedures for canceling the cards
for employees departing the FDIC, and in several cases, former employees continued to have credit
card privileges even after their departure from the Corporation. In addition, the FDIC did not
perform analyses on a regular basis to determine whether cardholders are using the procurement
credit card and have a business need for the card. Some employees in our sample were issued
cards but rarely used them, increasing the risk of misuse or undetected loss of the procurement
credit card. Finally, procurement cardholders had spending limits that exceeded their normal
purchase activity, and limits were not reviewed to ensure they reflected the extent of spending that
users were likely to incur. As a result, the FDIC procurement credit card program is more
vulnerable to fraud and misuse.

The Corporation has not conducted a formal risk analysis to identify specific types of
vulnerabilities and steps to address them, such as training, revisions to policy, and other means of
communicating information on the proper use of the card. The risk analysis is another suggested
component of GAO’s standards for internal control.




5
  It should be noted that no regulatory or contractual prohibitions are in effect for the FDIC with respect to the purchase
of alcoholic beverages.


                                                            4
COMPLIANCE WITH EXISTING FDIC POLICIES

FDIC employees responsible for conducting procurement credit card functions did not consistently
safeguard the cards or comply with other existing FDIC policies and procedures. For example,
cardholders
• allowed other FDIC employees to use their card to purchase goods and services for the
    Corporation,
• circumvented charge card limits by splitting purchases,
• did not retain required documentation,
• purchased items that should have only been purchased by employees of authorized divisions,
    and
• paid sales taxes although prohibited.

The GAO’s Internal Control Management and Evaluation Tool recommends control activities such
as training to help employees understand their roles and responsibilities. However, the FDIC had
not established an ongoing training program for employees involved in the Corporation’s
procurement credit card program. Non-compliance can result in credit card abuses or losses to the
FDIC.

Procurement Credit Cards Not Properly Safeguarded

Procurement cardholders allowed other employees who were not authorized to purchase goods or
services for the FDIC. FDIC APM 9.E.4.c (2) states that cardholders are designated by the AO and
approved by the APC to make purchases for their respective division location accounts through the
use of their procurement credit cards. These cardholders are responsible for the physical security of
their card and for safeguarding the credit card account number. We identified four cardholders
working in DIRM who allowed other DIRM employees to purchase goods and services for the
FDIC using the cardholder’s procurement credit card. One of the four DIRM employees who had a
procurement credit card issued to him, with thresholds of $5,000 per transaction and $50,000
monthly, allowed several other DIRM employees to charge goods and services on the card. The
procurement cardholder provided the credit card number to these individuals to use in making
purchases. When these individuals made purchases, the transactions would be recorded on the
monthly bill of the cardholder. The cardholder would then request receipts from the employees
who were making the purchases. Once the cardholder received the receipts, the cardholder would
review the charges and forward the bill and receipts to the approving official who later approved all
the charges.

The DIRM cardholders stated that it was a business decision to limit the number of physical
procurement credit cards issued in DIRM so that only higher ranking employees received a card to
purchase goods or services. However, the cardholders provided subordinates with the card number
and permitted them to make purchases. It should be noted that the DIRM employees making the
purchases were doing so as a standard part of their work requirements. However, by allowing
multiple employees to use the procurement card and exposing the account number, the FDIC
employees increased the risk of an individual accessing the credit card privileges and improperly
purchasing items. The Agency Program Coordinator, Acquisition Services Branch, DOA, needs to
ensure that all procurement credit card holders are aware of not allowing other FDIC employees to


                                                 5
use their procurement credit cards. In addition, cardholders need to be aware of the importance of
maintaining security of the credit card itself and the credit card number.

During our audit, we notified DOA of this matter, and DOA initiated three actions. First, DOA
authorized additional procurement credit cards for the DIRM employees who were responsible for
making purchases. This facilitated tracking and accounting for the credit cards and card activity.
Second, DOA issued a notice to procurement credit card program participants, reinforcing the
Corporation’s policy on the authorized use of the procurement credit card and reminding
cardholders of the critical importance of adhering to the policy. Third, DOA cancelled the credit
card privileges for the DIRM employee whose credit card number was widely distributed to other
employees.

Non-Compliance with FDIC Procurement Credit Card Policies

We noted multiple instances of non-compliance with procurement credit card policies. The
FDIC’s APM prohibits activities such as splitting purchases to circumvent spending limits,
requires rotating sources to preclude repeated acquisitions from the same vendor, and requires
responsible employees to maintain documentation to support their purchases. In addition, the
policy restricts the purchase of certain items such as books, office supplies, and information
resources management goods and services to only cardholders in designated FDIC divisions and
states that procurement credit card charges are not subject to sales taxes.

Twenty-five of 30 cases (84 percent) in our audit sample involved at least one instance where an
employee did not comply with established requirements. In 7 of the 30 cases, there were 3 or more
instances of non-compliance. Among these, there were instances of splitting purchases that
circumvented procurement credit card spending limits. Split purchases can also limit competition
for procurements. Not adhering to the Corporation’s guidelines increases the risk of improper
procurement card usage, paying excessive prices, erroneous payments, or fraudulent purchases.

Table 1 shows the types of non-compliance and the number of cardholders for each type.6




6
    Some cardholders had multiple instances of non-compliance.



                                                          6
Table 1: Instances of Non-Compliance


                                                                                            Potential
Type of Non-Compliance                                    Number of Cardholders              Risks

No Supporting Receipts/ Charges Not Properly                       10                 Unauthorized purchases
Documented

Paid Sales Taxes                                                   10                     Excessive costs


Unresolved disputed amounts                                        2                      Excessive costs


Use of Card or Card Number by Employees Other                      6
Than Cardholder                                                                       Unauthorized purchases

Split Purchases/Multiple Purchases from Same Vendor                2               Excessive costs due to lack of
                                                                                           competition
                                                                                         Excessive costs/
Inappropriately Purchased Restricted Equipment                     1                 Unauthorized purchases

Various Other Types of Non-Compliance (example-                    8                     Excessive costs/
exceeding non-monetary award limits)                                                  Unauthorized purchases
Source: OIG analysis of cardholder records.

The Corporation does not have an ongoing training program for all procurement cardholders,
approving officials, and accounting contacts. Rather, management stated that in the past, training
has been provided to cardholders on an inconsistent basis. Specifically, in 1996 and 1997
mandatory briefings were held for program participants. In addition, in 2001, briefings were held
for cardholders with increased thresholds. However, this training has not been provided on a
regular basis to all cardholders nor have the policies been reiterated to cardholders periodically.
Periodic training is a control activity that provides a level of assurance that employees understand
their responsibilities, particularly those regarding procurement card usage.

In order to ensure that agencies implement adequate systems of internal control over their
programs, the U.S. General Accounting Office issued Standards for Internal Control in the
Federal Government (Control Standards). Those standards provide a basic framework for
agencies to assess the risks they face and to determine internal control activities necessary to
mitigate those risks. Internal control activities may vary from agency to agency depending
upon such factors as risk. However, the GAO’s Internal Control Management Evaluation Tool
(GAO-01-1008G, August 2001), which is based on the Control Standards, recognizes that the
effective management of an organization’s workforce, its human capital, is a common internal
control activity. Specifically, according to GAO, management should provide employees with
the necessary orientation and training to perform their duties and responsibilities and meet the
demands of changing organizational needs. As noted in Table 1, the high incidence rate of
non-compliance with FDIC procurement credit card


                                                      7
policies increases significantly the risk to the Corporation of unauthorized purchases and
excessive costs, including those caused by a lack of price competition.

Recommendation

We recommend that the Director, DOA:

(1) Provide periodic training to procurement cardholders and approving officials in order to
    reiterate the policies and procedures governing the procurement credit card program. The
    policies over roles and responsibilities; security over the card; procurement thresholds;
    permissible, prohibited, and restricted use; supporting documentation requirements; repeated
    acquisitions from the same vendor (split purchases); refreshment/meal requirements; payment
    of sales taxes; and procedures for card usage should be reinforced.


PROCUREMENT CREDIT CARD USED FOR “EXTRAVAGANT MEALS” AND
QUESTIONABLE BUSINESS PURPOSE

In a very limited number of cases, procurement credit cards were used for meals and refreshments
that could be considered “extravagant” and where the business purpose was questionable based on
existing FDIC policy. Also, in one case the approving official for a cardholder was a subordinate.
While limited, each of these instances evidences the lack of clear FDIC policy guidance on aspects
of the procurement credit card program that can result in increased costs to the FDIC.

Although the FDIC’s APM prohibits purchases of extravagant meals, it does not define the term
“extravagant.” For comparative purposes to judge the extravagance, we used the FDIC’s policies
for reimbursing meals of employees while in a travel status. The FDIC reimburses employees
$22 per day for dinner and $11 per day for lunch expenses for the geographic locations we
reviewed. For analytical purposes, we considered expenditures that were double the travel
reimbursement rates or greater to be extravagant, i.e., $44 or more for dinner and $22 or more for
lunch. In instances noted, the employees charged meals that exceeded our baseline by as much as
3 times that amount. These charges also included alcoholic beverages, which is an expense that the
FDIC does not reimburse employees for under its general travel policies.7 Table 2 provides a
comparison of the cost of the meals versus our baseline amount for analytical purposes.




7
    FDIC’s General Travel Regulations, Travel Regulations Overview, Nonreimbursable Expenses.


                                                         8
Table 2: Analysis of Meal Costs

                                                                                   OIG BASELINE
                                                                                   (2 TIMES PER
                                              NUMBER OF         PRICE PER           DIEM RATE)
  OCCASION              TOTAL PRICE           EMPLOYEES          PERSON

1 – Conference
    Dinner                     $3,886            76                  $51                  $44

2 – Conference
    Dinner                     $2,238            17                  $132                 $44


3 – Lunch                       $119              3                  $40                  $22
Source: OIG analysis of cardholder records.

Example 1 reflects the cost of dinner and drinks, including alcoholic beverages, for a meal
associated with an FDIC conference. In example 2, although drinks were included in the price, we
were unable to determine whether alcohol was purchased based on review of the bill which did not
further break down the charges. Example 3 in the above table represents a purchase at a
Washington, D.C. restaurant where the cardholder used his procurement credit card to buy lunches
for a total of three FDIC employees. The cardholder intended the purchase as an appreciation or
farewell gesture for one of the attendees. The bill included charges for alcoholic beverages. In
addition to the cost of the lunch being almost twice the reimbursable lunch per diem rate for
Washington, D.C. of only $22, we question the business purpose of the lunch. Existing FDIC
policy is unclear on whether this is an official FDIC business expense. Rather than the
Corporation paying for meals of employees leaving the FDIC, this type of more personal expense
could be paid for by the attendees of the farewell lunch.

The FDIC’s APM states that the procurement cards can be used for refreshments and meals as long
as the purchase is non-extravagant and used during the ordinary course of official FDIC business
conferences, meetings, luncheons, dinners, or other functions. However, the manual does not
further define “official FDIC business.” The examples stated above appear to be extravagant in
nature when reviewing the cost per person and comparing the amount to the reimbursable per diem
rate for an employee on official travel. In addition, the Corporation should only pay for charges
that are business-related and benefit the Corporation. For example, credit card charges to celebrate
birthdays, retirements, holidays or other special personal celebrations should be prohibited.

Additionally, although the APM does not specifically prohibit the purchase of alcoholic beverages
using the procurement credit card, the FDIC’s travel policies provide guidelines concerning
reimbursable employee expenses. Those guidelines prohibit the reimbursement of employees for
purchases of alcoholic beverages. In addition, FDIC’s Circular 2500.3, FDIC-Sponsored
Government Travel Card Program, states that the travel card is to be used only for official travel-
related services. Because the purchase of alcohol is not an allowable travel reimbursement, the
travel card should not be used for these types of purchases. Further, the FDIC’s travel card has a


                                                 9
block on purchases made at package stores for items including beer, wine, and liquor. Therefore,
in our opinion, permitting the purchase of alcoholic beverages using the procurement card is
inconsistent with travel card policies, could adversely impact the public’s perception of the
Corporation and its employees, and could pose related liability issues to the Corporation.

Finally, the approving official for the cardholder who purchased the meals totaling $2,238 was
the cardholder’s subordinate. It is not a good business practice to have the approving official
as a subordinate to the cardholder because the cardholder can exercise influence over the
approving official. The current APM is silent on this issue. Modifying the manual to preclude
an approving official being subordinate to the cardholder can help deter misuse of procurement
credit cards.

Recommendations

We recommend that the Director, DOA, use the FDIC’s Acquisition Policy Manual, Chapter 9, to:

(2) Define extravagant meals and refreshments and what constitutes an allowable and unallowable
    expense for meal purchases using the procurement credit card.

(3) Prohibit the purchase of alcoholic beverages using the procurement credit card.

(4) Require approving officials not be subordinates to the cardholders for whom they approve
    purchases.


CANCELLATION OF PROCUREMENT CREDIT CARDS

The FDIC did not cancel procurement cards timely for employees departing FDIC employment.
Specifically, the procurement card was not canceled timely for six of eight former employees in the
sample we reviewed. The FDIC canceled the cards from 3 to 104 days after the employee was no
longer employed by the Corporation. This occurred because the FDIC did not follow the guidelines
in its APM and the FDIC lacked adequate pre-departure clearance procedures for employees
departing FDIC employment. Untimely cancellation increases the risk that former employees or
others who may have access to the account number may make unauthorized purchases.

The APM Section 9.E.6.e, Procurement Credit Card Program –Resignation or Reassignment of
Cardholder or Approval Official, requires that when a cardholder leaves the FDIC or moves to
another FDIC location, the APC, or his/her designee, must be immediately notified. Before a
cardholder’s departure from his/her office, the AO must ensure that the credit card is retrieved from
the cardholder and destroyed. The APC, or his/her designee, should notify the Bank of America,
and the account will be closed.

Because the FDIC has reorganized and reduced staffing levels corporate-wide, many individuals
have left or will be leaving the Corporation. Improvements are needed to cancel procurement credit
cards when individuals leave either permanently or to relocate. One additional means of
strengthening controls is to revise Circular 2150.1, Pre-Exit Clearance Procedures for FDIC


                                                 10
Employees, specifically the Pre-Exit Clearance Record for Employees. During the period of our
review, the circular did not incorporate the requirement in APM 9.E.6.e regarding retrieval of the
credit card from relocating or departing employees. Subsequent to our review, the FDIC revised
the circular to include the procurement credit card as an item for collection, and the circular now
describes specific actions that need to be taken for departing employees holding the procurement
credit cards. During the course of our review, we discussed this matter with DOA and issued a
memorandum to advise the Director, DOA, of the weakness in the procurement credit card
cancellation process.

On July 3, 2002, DOA issued a notice to all credit card approving officials and administrative
officers to highlight the corporate policies pertaining to exiting and relocating employees. The
notice also stated that due to the FDIC’s ongoing reorganization and number of people leaving the
Corporation under the buyout program, approving officials were requested to provide a list of all
procurement cardholders currently under their authority. Further, the notice communicated the new
procedures contained in Circular 2150.1, Pre-Exit Clearance Procedures for FDIC Employees.
DOA issued the Circular in final on September 17, 2002. The revised circular includes the
following added control activities:

•   The procurement credit card and corresponding convenience checks are listed on the Pre-Exit
    Clearance Record for Employees form as items that need to be returned to the FDIC.

•   Administrative officers are required to obtain the employee’s FDIC procurement credit card;
    any remaining convenience checks; and cardholder file, including receipts for outstanding
    charges, before the last day of official duty. The administrative officer must also notify the
    APC of the cardholder’s effective date of departure, destroy and dispose of the cardholder’s
    procurement card and convenience checks upon receipt of cancellation information from the
    APC, and return the cardholder file to the APC with any outstanding receipts.

Implementation of the control activities mentioned above will reduce the risk of improper
procurement credit card usage by former employees. However, canceling a cardholder’s card and
convenience checks in a more timely manner, specifically, as soon as employees provide notice
that they will leave FDIC employment or in cases where they relocate and will no longer be in
positions requiring use of the card, will further strengthen internal control. This measure should
help reduce the risk of any unauthorized purchases by the cardholder between the time that notice
is provided to the FDIC and the actual departure or transfer date and ensure that the procurement
credit card is canceled prior to the employee’s actual departure or transfer.

Recommendation

We recommend that the Director, DOA:

(5) Enforce APM Section 9.E.6.e by reminding cardholders/approving officials of the requirement
    to immediately notify the APC, or his/her designee when the cardholder/approving official
    either leaves the FDIC or moves to another FDIC position so that the APC can notify the Bank
    of America to cancel the card.



                                                 11
ISSUING PROCUREMENT CARDS AND REDUCING PROCUREMENT
THRESHOLDS

Many FDIC procurement cardholders were only using the card for a limited amount of activity. In
addition, procurement cardholders had spending limits that exceeded their normal purchase
activity. For instance, 79 cardholders used the card five times or fewer during a 2-year period. One
of those cardholders had a single purchase limit of $250,000 and another had a limit of $100,000.
The highest dollar amount that these individuals spent during a 2-year period was $98,490 and
$1,833, respectively. The FDIC had not reviewed cardholder purchase records to assess
cardholder inactivity and excessive spending limits. The GAO’s Internal Control Management
and Evaluation Tool suggests that the risk of unauthorized use be controlled by restricting access.
Excessive access to procurement credit card privileges increases the risk of unauthorized usage.
Limiting access to credit card privileges is an essential internal control activity.

The Director of the Office of Management and Budget (OMB) recognized the importance of
internal control in the federal government’s credit card program and issued OMB Memorandum
M-02-05, dated April 18, 2002, suggesting that agencies prepare remedial action plans for their
programs. Specifically the memorandum states “Your plans should also include an examination of
the number of cards issued at your agency. One step that may prove useful would be to deactivate
all current cards and reactivate them selectively for a smaller number of cardholders, based on
demonstrated necessity.” By examining the number of cards issued and the related thresholds, the
FDIC may be able to preclude unnecessary access to credit card privileges and reduce the risk of
unauthorized card usage.

Recommendations

We recommend that the Director, DOA:

(6) Perform an analysis on a regular basis to determine whether cardholders are using the card. If
    a cardholder is not using the card on a fairly regular basis, consider canceling the card
    privileges.
(7) Review the spending limits for all cardholders and ensure that the limits reflect the extent of
    spending that they are likely to incur.

MANAGEMENT ASSESSMENT OF PROGRAM RISK

Management can enhance its assessment of procurement card program risk by conducting a risk
assessment. Notwithstanding establishment of an overall control environment, including policies
and procedures to address the risk of improper use of the card, the Corporation has not conducted a
formal risk analysis that may have identified specific types of vulnerabilities and steps to address
them. DOA does engage in periodic Administrative Compliance Reviews (ACR) of procurement
credit card use. These reviews examine the appropriateness of procurement credit card use and
support for purchases made after the fact. However, without first devising a thorough plan for risk
management over the entire procurement card program, these reviews may be a less effective
control than they could be. For example, a risk assessment could identify vulnerabilities that are
not presently tested using the ACRs. Additionally, lack of an overall risk assessment may have


                                                 12
limited DOA from establishing all other necessary control activities. This absence of risk
identification may make the Corporation’s procurement credit card program vulnerable to
increased misuse.

According to GAO’s Standards for Internal Control, a risk assessment is an integral component of
the entity’s internal control system. GAO states that management has to formulate an approach for
risk management and decide upon the internal control activities required to mitigate those risks and
achieve the internal control objectives of efficient and effective operations. Review of both
internal and external risks involved in a program facilitates the design of effective internal control
activities.

Such an assessment of the FDIC procurement credit card program could have helped identify a
need for increased emphasis on compliance and training, better clarity of policies, appropriateness
of purchase thresholds, more timely cancellation of cards, and other means of communicating
information on the proper use of the card. Absent full awareness of the risks, management controls
were not as effective as they could have been and the program as a whole was more vulnerable.

Recommendation

We recommend that the Director, DOA:

(8) Conduct a risk assessment of the procurement card program and establish the necessary control
    activities to mitigate the risks identified.

CORPORATION COMMENTS AND OIG EVALUATION

On January 24, 2003, the DOA Director provided a written response to the draft report. The
response is presented in Appendix II to this report. In its written response, DOA management
concurred with recommendations 1, 4, 5, 6, 7, and 8. These recommendations are considered
resolved but will remain undispositioned and open until we have determined that agreed-to
corrective actions have been completed and are effective. DOA management did not concur with
recommendations 2 and 3, suggest acceptable alternative actions, or provide information that
would convince us to revise either of the two recommendations. Because these two
recommendations remain unresolved, undispositioned, and open, we are requesting DOA to
reconsider its response to our report and provide us additional comments. DOA’s responses to the
recommendations are summarized below along with our evaluation of the responses.

Recommendation 1: Provide periodic training to procurement cardholders and approving
officials in order to reiterate the policies and procedures governing the procurement credit
card program. The policies over roles and responsibilities; security over the card;
procurement thresholds; permissible, prohibited, and restricted use; supporting
documentation requirements; repeated acquisitions from the same vendor (split purchases);
refreshment/meal requirements; payment of sales taxes; and procedures for card usage
should be reinforced.

DOA concurs with this recommendation. Subsequent to the end of our fieldwork in September


                                                 13
2002, DOA completed an online procurement credit card training module in December 2002
which will be available to program participants by the end of January 2003. The program’s
training policy is also being revised and will require all new cardholder applicants to take the
course and receive a passing score prior to receiving the procurement credit card. Completion of
the training module will be recorded in the FDIC training server, and the APC will have access to
the training server to monitor cardholders’ completion of the required training module. Existing
cardholders will also be required to take periodic training to refresh cardholders on their roles and
responsibilities under the program.

In our view, the efforts made to date by DOA to have an online training program available to all
procurement cardholders will improve the overall effectiveness of the program. Tracking the
completion of the training for cardholders by the APC will also improve controls. In addition, to
clarify a statement made in DOA’s response, the OIG reviewed 30 cardholders from a population
of 132 cardholders who engaged in at least $1,000 of purchases during the last quarter of 2001. In
total, there were 780 credit card transactions for the 30 cardholders for this period. DOA stated in
its response that there were 6,188 credit card transactions; however, this total reflects transactions
during calendar years 2000 and 2001. The difference in the number of transactions used by DOA,
6,188 versus 780 in the OIG sample, increases the error rate from 1 percent as computed by DOA
to approximately 9 percent.

This recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.

Recommendation 2: Define extravagant meals and refreshments and what constitutes an
allowable and unallowable expense for meal purchases using the procurement credit card.

DOA does not concur with this recommendation. DOA stated that the focus should not be on
creating a definition for extravagant, but should instead be directed on the adequacy of the internal
controls that govern approval. DOA does not consider that the examples cited by the OIG meet the
intent of the definition of extravagant. DOA believes that the APM sufficiently addresses the
purchase of meals and refreshments in a manner that minimizes potential risks to the Corporation.
Specifically, the purchase of all refreshments and meals must be approved in advance and in
writing at the Assistant Director-level or above in headquarters or the Regional Director/Regional
Manager in the field. The current practice elevates the approval process to an executive level
manager who has the ability to use discretion as circumstances warrant. DOA believes this high
level of advanced written approval serves as an adequate internal control as it pertains to the use of
the procurement card for refreshments. Further, DOA stated that for each of the exceptions noted
in the OIG report, proper approval was obtained.

The pre-approval process alone will not result in consistent application of approved expenses
throughout the Corporation if the Corporation does not further define in the APM extravagant
meals and refreshments and what constitutes an allowable and unallowable expense for meal
purchases. As cited in our examples, and from DOA’s response, individuals have different
definitions of extravagance and different opinions on the allowability of meal purchases. For
example, the OIG considers that spending $132 per person for a meal and drinks is extravagant.
Also, the Corporation should not be paying for the going away lunch for employees leaving the


                                                  14
FDIC. This type of expense should be paid by the attendees of the farewell lunch. By defining
both extravagant and what constitutes an allowable and unallowable expense for meal purchases,
the FDIC can better control costs charged to procurement cards. Further, the OIG did not see
evidence that prior written approval was obtained for the three exceptions noted in the report.
Because this recommendation is unresolved, undispositioned, and open, we have requested DOA
to reconsider its response to our report and provide us additional comments.

Recommendation 3: Prohibit the purchase of alcoholic beverages using the procurement
credit card.

DOA does not concur with this recommendation. DOA stated as with recommendation 2, above,
that appropriate controls are in place and alcohol may only be purchased using the procurement
credit card under these circumstances and controls. The current practice elevates the approval
process to an executive level manager who has the ability to use discretion as circumstances
warrant. Other than this approval process, alcohol may not be purchased using the procurement
credit card.

The OIG’s position is that the APM, Chapter 9, should prohibit the purchase of alcoholic
beverages using the procurement credit card. Permitting the purchase of alcoholic beverages is
inconsistent with travel card policies, could adversely impact the public’s perception of the
Corporation and its employees, and could pose related liability issues to the Corporation. Also,
because individuals have different viewpoints on the use of alcohol, policy prohibiting the
purchase of alcohol using the procurement credit card would provide consistency throughout the
Corporation.

Because this recommendation is unresolved, undispositioned, and open, we have requested DOA
to reconsider its response to our report and provide us additional comments.

Recommendation 4: Require approving officials not be subordinates to the cardholders for
whom they approve purchases.

DOA concurs with this recommendation. DOA agrees that an approving official should not be a
subordinate to a cardholder for whom they approve purchases. To address this issue, by the first
quarter of 2003, DOA will incorporate language into procurement credit card policy that clearly
articulates the requirements of the approving official/cardholder relationship before issuance of a
procurement credit card.
This recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.

Recommendation 5: Enforce APM Section 9.E.6.e by reminding cardholders/approving
officials of the requirement to immediately notify the APC, or his/her designee when the
cardholder/approving official either leaves the FDIC or moves to another FDIC position so
that the APC can notify the Bank of America to cancel the card.

DOA concurs with this recommendation. DOA recently issued interim guidance to the


                                                 15
Corporation that addressed cancellation of the procurement credit card during the pre-exit
clearance process. In addition, subsequent to issuing this interim guidance, the Pre-Exit Clearance
Circular was updated with the revised requirements. This also included updating the Pre-Exit
Clearance Form to require the administrative officer to collect the credit card and sign the form to
acknowledge that the action was completed. DOA also stated that it will issue periodic reminders
to the cardholders, approving officials, and administrative officers of the requirement to
immediately notify the APC, or his/her designee when the cardholder/approving official either
leaves the FDIC or moves to another FDIC position so that the APC can notify the contractor to
cancel the account. The actions taken by DOA and future reminders to appropriate staff will
improve the internal controls over the cancellation of procurement credit cards.

This recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.

Recommendation 6: Perform an analysis on a regular basis to determine whether
cardholders are using the card. If a cardholder is not using the card on a fairly regular basis,
consider canceling the card privileges.

DOA concurs with this recommendation. DOA stated that usage reports for both the credit cards
and convenience checks are obtained from the contractor on a quarterly basis. Analysis of
cardholder usage was conducted, and the results were shared with the approving officials to
determine whether credit cards should be cancelled for certain cardholders. The APC analyzed the
responses and decided to expand the survey period to obtain a broader perspective on cardholder
usage. DOA is in the process of analyzing the procurement credit card usage for 2002.

This recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.

Recommendation 7: Review the spending limits for all cardholders and ensure that the limits
reflect the extent of spending that they are likely to incur.

DOA concurs with this recommendation. DOA stated that the APC has incorporated a process to
analyze the spending limits for cardholders on a quarterly basis to determine whether the spending
thresholds or limits are appropriate. This evaluation is conducted in conjunction with the APC’s
analysis of cardholder usage. DOA is analyzing the spending limits for all cardholders for 2002
and expects to complete its analysis by March 31, 2003.

This recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.

Recommendation 8: Conduct a risk assessment of the procurement card program and
establish the necessary control activities to mitigate the risks identified.

DOA concurs with this recommendation. DOA stated that it will establish the procurement card
program as an accountability unit and test the controls for those identified risks under the Chief
Financial Officers Act. It will establish the accountability unit by March 31, 2003 and testing will


                                                 16
take place as dictated in the Corporation’s annual Management Control Plan.

The recommendation is resolved but will remain undispositioned and open until we have
determined that agreed-to corrective action has been completed and is effective.

A summary chart showing management’s responses to all recommendations is presented in
Appendix III.




                                               17
                                                                                   APPENDIX I

                               SCOPE AND METHODOLOGY

To accomplish our objective, we:

•   Interviewed DOA personnel responsible for monitoring the FDIC’s procurement credit card
    program and personnel from various FDIC divisions and offices responsible for making and
    approving credit card purchases.

•   Reviewed policies and procedures, including the FDIC Acquisition Policy Manual, Section
    9.E., entitled FDIC Procurement Credit Card Program.

•   Reviewed the President’s Council on Integrity and Efficiency (PCIE) and Executive Council
    on Integrity and Efficiency (ECIE) guide to conducting a review of an agency’s government
    purchase card program.

•   Reviewed the U.S. General Accounting Office’s (GAO) Standards for Internal Control in the
    Federal Government (GAO/AIMD-00-21.3.1, issued November 1999) and GAO’s Internal
    Control Management and Evaluation Tool (GAO-01-1008G, issued August 2001).

•   Obtained and relied upon data from the Bank of America that contained all purchases made by
    FDIC cardholders for the period of review, and conducted random attribute testing and data
    mining. We examined all cardholder activity during the 2-year period ending December 31,
    2001 to identify trends and indicators of improper purchases, such as purchases from
    establishments that sell alcoholic beverages. From the unusual purchases identified, we
    reviewed 32 in detail. In addition, we used data mining to identify any outstanding
    procurement credit cards issued to former employees as of December 15, 2001.

For our random attribute sample, we selected 30 cardholders from a population of 132 cardholders
who had engaged in at least $1,000 of purchases during the last quarter of 2001. This approach
enabled us to select cardholders who had actually used the procurement credit card. In addition, in
order to facilitate testing the adequacy of control activities nation-wide, the cardholders were
selected from the FDIC’s Washington, Atlanta, Dallas, and Chicago regional offices.

We conducted the audit from February 2002 through September 2002 in accordance with generally
accepted government auditing standards.




                                                18
                                                                                        APPENDIX II
                                              CORPORATION COMMENTS

        Federal Deposit Insurance Corporation
        550 17th Street, NW, Washington, DC 20429                                      Division of Administration




                                             January 24, 2003

MEMORANDUM TO: Sharon M. Smith
               Deputy Assistant Inspector General for Audits


FROM:


SUBJECT:                      Management Response to the OIG Report: FDIC Procurement Credit
                              Card Program

The Division of Administration (DOA) has completed its review of the subject Office of
Inspector General (OIG) report. We appreciate the review performed by the OIG and its
recommendations to enhance and improve the overall Procurement Credit Card Program. In the
OIG report there are eight recommendations addressed to the FDIC’s Division of Administration
(DOA). We have evaluated each recommendation, and have provided a detailed response to
include planned corrective actions and expected completion dates as appropriate.

Management Decision:

Recommendation 1: We recommend that the Director, DOA, provide periodic training to
procurement cardholders and approving officials in order to reiterate the policies and procedures
governing the procurement credit card program. The policies over roles and responsibilities;
security over the card; procurement thresholds; permissible, prohibited, and restricted use;
supporting documentation requirements; repeated acquisitions from the same vendor (split
purchases); refreshment/meal requirements; payment of sales taxes; and procedures for card
usage should be reinforced.

Management Response 1: DOA appreciates the recommendation made by the OIG, and fully
agrees that periodic training is important. As communicated to the OIG auditors during the
review, the DOA Acquisition Services Branch (ASB), as the Agency Program Coordinator
(APC) for the Procurement Credit Card Program, has made training an integral component of the
program in order to fully educate the universe of corporate users. In the initial training efforts to
roll-out the Procurement Card Program, DOA developed presentation materials and conducted
periodic briefings to the corporate participants within the various FDIC divisions and offices to
indoctrinate them to the requirements and guidelines that encompass the program. Attendance to
these briefings was mandatory to all procurement card holders and approving officials.

Moreover, further confirmation of our commitment to ensure corporate awareness of the program
was our development effort of the online Procurement Credit Card training module that we
initiated and set in motion prior to the commencement of the OIG audit. The training module
was completed in December 2002 and will be rolled out to program participants by the end of


                                                     19
January 2003. The Program’s training policy is also being revised and will require all new
cardholder applicants to take the course and receive a passing score prior to receiving the
procurement credit card. Completion of the training module will be recorded in the FDIC
Training Server, and the APC will have access to the training server to monitor cardholder’s
completion of the required training module. Existing cardholders will also be required to take
periodic training to refresh cardholders of their roles and responsibilities under the program.
Given the efforts made to date by the DOA APC, we believe management of the overall program
has been effective. In addition to training that we have provided to existing cardholders, DOA has
established a website dedicated to the program that readily provides all pertinent information on
the program, to include policies and procedures. Additionally comprehensive oversight of the
program is built into a three tiered approach to mitigate program risks. These include credit card
transaction approval by the Approving Official, proactive oversight by the APC, and a
comprehensive internal review program that continually evaluates and monitors the overall
corporate-wide program. As an issue is identified, APC takes immediate action to address the
cause for the given condition. Actions may include working with the Approving Official to
address non-compliance issues, global email reminders, and/or program policy changes.
As shown in the OIG report, the number of non-compliance exceptions found (731) represent
approximately one percent of the total credit card transactions (6,1882) reviewed by the OIG
during its audit. We believe that the low number of non-compliance instances cited by the OIG is
a direct result of the proactive oversight and previous training that DOA provided. DOA believes
that an error rate of one percent is evident that the risks associated with the program are being
mitigated by the existing internal controls that the APC has established and implemented in
managing the program.
Recommendation 2: We recommend that the Director, DOA, use the FDIC’s Acquisition Policy
Manual, Chapter 9, to define extravagant meals and refreshments and what constitutes an
allowable and unallowable expense for meal purchases using the procurement credit card.
Management Response 2: DOA does not agree with the recommendation that “Extravagant
Meal and Refreshments” be defined in the FDIC’s Acquisition Policy Manual. The focus should
not be on creating a definition for “extravagant,” but should instead be directed on the adequacy
of the internal controls that govern its approval. Extravagant, as defined, means “given to
imprudent or lavish spending or exceeding reasonable limits,” DOA does not believe that the
examples cited by the OIG meet the intent of the definition, which we believe is self-explanatory.
 For each of the exceptions noted in the OIG report, proper approval was obtained.
We believe that the APM sufficiently addresses the purchase of meals and refreshments in a
manner that minimizes potential risks to the Corporation. Specifically, the purchase of all
refreshments and meals must be approved in advance and in writing at the Assistant Director-
level or above in Headquarters or the Regional Director/Regional Manager in the Field. The
1
 Information obtained from the OIG working papers.
2
 Total Credit Card Transactions of 6,188 was compiled by the APC from the information obtained from the Bank of
America for purchases made during the calendar years 2000 and 2001. The scope was based on the narrative
contained in the Scope and Methodology section of the OIG draft report.




                                                      20
current practice elevates the approval process to an executive level manager who has the ability
to use their discretion as circumstances warrant. We believe this high-level of advanced written
approval serves as an adequate internal control as it pertains to the use of the procurement card
for refreshments and meals.


Recommendation 3: We recommend that the Director, DOA, use the FDIC’s Acquisition Policy
Manual, Chapter 9, to prohibit the purchase of alcoholic beverages using the procurement credit
card.

Management Response 3: DOA does not agree with the recommendation to prohibit the
purchase of alcoholic beverages using the procurement credit card. As with Response 2, above,
appropriate controls are in place and alcohol may only be purchased using the procurement credit
card under these circumstances and controls. The current practice elevates the approval process
to an executive level manager who has the ability to use their discretion as circumstances warrant.
 Other than this approval process, alcohol may not be purchased using the procurement credit
card.


Recommendation 4: We recommend that the Director, DOA, use the FDIC’s Acquisition Policy
Manual, Chapter 9, to require approving officials not be subordinates to the cardholders for
whom they approve purchases.

Management Response 4: DOA fully agrees with the recommendation that approving officials
should not be a subordinate to a cardholder for whom they approve purchases. Although not
specifically stated in the APM, this practice has always been in place and enforced by the Agency
Program Coordinator (APC). As discussed with the OIG audit team, the APC was fully aware of
the occurrence noted in the report where a subordinate employee served as the approving official
to senior level employees who were cardholders. This cardholder/approving official relationship
was established by a Regional Director. When the APC recognized the atypical arrangement, the
APC notified the appropriate parties within the Division. It was determined that no specific
action was to be taken until completion of the division-wide reorganization. After the
reorganization, APC took appropriate action.

To address this program issue globally, DOA will incorporate language into procurement credit
card policy that clearly articulates the requirements of the approving official / cardholder
relationship before issuance of a procurement credit card. Specifically, the APM will prohibit
subordinate employees from being an approving official to a supervisor. DOA will incorporate
the requirement into policy by the end of the first quarter 2003.

Additionally, DOA is in the process of establishing a Letter of Appointment that will be issued to
all Approving Officials detailing their specific roles and responsibilities. This is in addition to the
Delegation Memos that are currently issued to all procurement credit card holders.




                                                  21
Recommendation 5: We recommend that the Director, DOA, enforce APM Section 9.E.6.e by
reminding cardholders/approving officials of the requirement to immediately notify the APC, or
his/her designee when the cardholder/approving official either leaves the FDIC or moves to
another FDIC position so that the APC can notify the Bank of America to cancel the card.

Management Response 5: DOA appreciates the recommendation made by the OIG, and agrees
that immediate cancellation of the procurement credit card should be made as cardholders
separate from the Corporation or are reassigned within the FDIC. This practice has always been
an important component of the procurement card program, and we believe the requirement is
clearly communicated in Chapter 9 of the APM. In addition, the APC has directed communiqué
to administrative officers that emphasize the importance that timely notification is made to the
APC in order to cancel the procurement card immediately. To enforce and effectively monitor
this area, the APC incorporated a process in 2000 to obtain, on a routine basis, employee
separation and reassignment information from the DOA Personnel Services Branch. The APC
staffs review the information to determine if any of the employees listed are cardholders and
determine whether their procurement card was cancelled appropriately.

Further efforts by the APC to deal with timely cancellation of credit cards was made in August
2002 whereby the APC issued interim guidance to the Corporation that addressed cancellation of
the procurement credit card during the pre-exit clearance process. Subsequent to this interim
guidance, the Pre-Exit Clearance Circular was updated with the revised requirements. This also
included updating the Pre-Exit Clearance Form to require the Administrative Officer to collect
the credit card and sign the form to acknowledge that the action was completed.

The internal controls that we have established over the program are effective; however, as with
all important aspects of the program, we will issue periodic reminders to the cardholders,
approving officials, and administrative officers of the requirement to immediately notify the
APC, or his/her designee when the cardholder/approving official either leaves the FDIC or moves
to another FDIC position so that the APC can notify the contractor to cancel the account. DOA
expects to issue its first reminder for the New Year by January 31, 2003.


Recommendation 6: We recommend that the Director, DOA, perform an analysis on a regular
basis to determine whether cardholders are using the card. If a cardholder is not using a card on a
fairly regular basis, consider canceling the card privileges.

Management Response 6: DOA concurs with the recommendation. The APC has incorporated
cardholder usage analysis as the program has evolved and grown over the last six years. The
analysis was part of the evaluative process as major program changes and enhancements were
made. In 2000, APC expanded its oversight program and began routine analysis of cardholder
usage. Usage reports for both the credit cards and convenience checks are obtained from the
contractor on a quarterly basis. Analysis of the cardholder usage was conducted, and the results
were shared with the Approving Officials to determine whether credit cards should be cancelled
for certain card holders. The APC analyzed the responses and determined to expand the survey
period to obtain a broader perspective on cardholder usage. DOA is in the process of analyzing
the procurement credit card usage for 2002. Expected completion will be March 31, 2003.


                                                22
Recommendation 7: We recommend that the Director, DOA, review the spending limits for all
cardholders and ensure that the limits reflect the extent of spending that they are likely to see.

Management Response 7: DOA concurs with the recommendation. The APC has incorporated
a process to analyze the spending limits for cardholders on a quarterly basis to determine whether
the spending thresholds or limits are appropriate. This evaluation is conducted in conjunction
with APC’s analysis of cardholder usage, as discussed in Management Response 6. DOA is in
the process of analyzing the spending limits for all cardholders for 2002. Expected completion
for this initial analysis will be March 31, 2003.


Recommendation 8: We recommend that the Director, DOA, conduct a risk assessment of the
procurement card program and establish the necessary control activities to mitigate the risks
identified.

Management Response 8: DOA concurs with this recommendation. It is important to note that
extensive internal controls have been incorporated into the procurement card program and that
oversight of the program includes routine risk assessment. However, due to the high-level of
attention and interest given to the credit card programs throughout the federal government, DOA
will establish its program as an Accountability Unit and test the controls for those identified risks
under the Chief Financial Officers Act (CFOA). The Accountability Unit will be established by
March 31, 2003, and testing will take place as dictated in the annual Management Control Plan
submitted to the Office of Internal Control Management.


If you have any questions regarding the response, our point of contact for this matter is Andrew
Nickle, Audit Liaison for the Division of Administration. Mr. Nickle can be reached at (202)
942-3190.

cc: Dave McDermott
    Vijay Deshpande




                                                 23
                                                                                                                                                            APPENDIX III
                                                   MANAGEMENT RESPONSES TO RECOMMENDATIONS
This table presents the management responses that have been made on recommendations in our report and the status of recommendations as of the
date of report issuance. The information in this table is based on management’s written response to our report.
                                                                                                                                                              Open
 Rec.                                                                        Expected              Monetary       Resolveda :     Dispositionedb:              or
Number           Corrective Action: Taken or Planned/Status                Completion Date         Benefits       Yes or No          Yes or No               Closedc
               DOA concurs with the recommendation and
               completed an online procurement credit card
               training module in December 2002 which will be
               available to program participants by the end of
               January 2003. In addition, existing cardholders
               will also be required to take periodic training to
               refresh cardholders on their roles and
       1       responsibilities under the program.                         January 31, 2003           N/A             Yes                 No                  Open
               DOA does not agree with this recommendation
               and stated that the focus should not be on creating
               a definition for extravagant, but should instead be
               directed on the adequacy of the internal controls
               that govern approval. OIG requests that DOA
               reconsider its response to our report and provide
       2       us additional comments.                                                                N/A              No                 No                  Open
               DOA does not agree with this recommendation
               and stated as with recommendation 2, above, that
               appropriate controls are in place and alcohol may
               only be purchased using the procurement credit
               card under these circumstances and controls. OIG
               requests that DOA reconsider its response to our
       3       report and provide us additional comments.                                             N/A              No                 No                  Open
a
    Resolved – (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
                (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
                (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                management provides an amount.
b
 Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.

                                                                                       24
                                                                                                                          Open
 Rec.                                                            Expected         Monetary   Resolved:   Dispositioned:     or
Number     Corrective Action: Taken or Planned/Status          Completion Date    Benefits   Yes or No     Yes or No      Closed
         DOA concurs with the recommendation and will
         incorporate language into procurement credit card
         policy that clearly articulates the requirements of
         the approving official/cardholder relationship
         before issuance of a procurement credit card.
  4                                                            March 31, 2003       N/A        Yes            No          Open
         DOA concurs with the recommendation and has
         revised the Pre-Exit Clearance Circular. In
         addition, DOA will issue periodic reminders to the
         cardholders, approving officials, and
         administrative officers of the requirement to
         immediately notify the APC, or his/her designee
         when the cardholder/approving official either
         leaves the FDIC or moves to another FDIC
         position so that the APC can notify the contractor
  5      to cancel the account.                                January 31, 2003     N/A        Yes            No          Open
         DOA concurs with the recommendation and is in
         the process of analyzing the procurement credit
  6      card usage for 2002.                                  March 31, 2003       N/A        Yes            No          Open
         DOA concurs with the recommendation and has
         incorporated a process to analyze the spending
         limits for cardholders on a quarterly basis to
         determine whether the spending thresholds or
  7      limits are appropriate.                               March 31, 2003       N/A        Yes            No          Open
         DOA concurred with the recommendation and
         will establish its program as an Accountability
         Unit and test controls for those identified risks
  8      under the Chief Financial Officers Act.               March 31, 2003       N/A        Yes            No          Open




                                                                         25
